McGowan, Hood & Felder, LLC
Chad A. McGowan (SC,GA,NC)
S. Randall Hood
John G. Felder, Jr.
Robert V. Phillips
W. Jones Andrews, Jr.
Russell T. Burke
Jordan C. Calloway
Susan F. Campbell
Deborah Casey (NC)*
Ashley White Creech
Shawn B. Deery
Chance M. Farr (SC,NC)
Julia M. Flumian

Eve S. Goodstein
Whitney B. Harrison
Richard A. “Trey” Jones III
Patrick M. Killen
Daniel W. Luginbill
Anna S. Magann
Ranee Saunders
James L. Ward, Jr. (SC,NC)
James Stephen Welch (SC,OK)*
Jay F. Wright
Joseph G. Wright, III*
*Of Counsel

April 2, 2021
Via Electronic Submission
Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: No. 20-1276, McKinney v. Dean
Dear Mr. Bickell:
I am counsel for Respondent in the above-referenced case. On March 15, 2021, a certiorari
petition was docketed in this case. Unless extended by the Court, the response would be due on
April 14, 2021. For the reasons that follow, and pursuant to Rule 30.4, I respectfully request an
extension of 30 days, to and including May 14, 20121.
I have several pressing obligations during these upcoming weeks, including briefing
deadlines in multiple state appellate court matters and preparations for an upcoming argument at
the South Carolina Supreme Court. An extension will allow me to meet these obligations and also
to file a response that adequately addresses the points raised in the petition.
For these reasons, I ask that a 30-day extension be granted. Thank you for your attention
to this matter.
Sincerely,
Jordan C. Calloway
Counsel for Respondent
Cc: Andrew F. Lindemann, Counsel for Petitioner
1539 Health Care Drive, Rock Hill, SC 29732 × T: 803.327.7800
Rock Hill × Columbia × Greenville × Sumter × Pawleys Island × Charleston

www.mcgowanhood.com

